JAMES E. JOHNSON
Corporation Counsel

THE CITY OF NEW YORK

LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007

JAMISON DAVIES
telephone: 212-356-2490
fax: 212-356-1148
email: jdavies@law.nyc.gov

January 16, 2020

Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, DC 20543-0001

Re: Vugo, Inc. v. City of New York, Docket No. 19-792
Dear Mr. Harris:
I am an attorney in the office of James E. Johnson, Corporation
Counsel of the City of New York and counsel for the respondent in the abovecaptioned case. On December 18, 2019, petitioner filed a petition for a writ of
certiorari, making the respondent’s brief in opposition due January 20, 2020.
Respondent respectfully requests a 60-day extension of time to file this office's
response, up to and including March 20, 2019. Petitioner does not oppose this
request for an extension of time.
Thank you very much for your consideration.

Respectfully submitted,

Jamison Davies
Assistant Corporation Counsel
Appeals Division
cc:
Jeffrey M. Schwab
Counsel of Record
Liberty Justice Center
190 LaSalle Street
Suite 1500
Chicago, IL 60603
jschwab@libertyjusticecenter.org
Chad A. Snyder
Rubric Legal LLC
111 Third Avenue South
Suite 110
Minneapolis, MN 55401
chad@rubriclegal.com
Attorneys for Petitioner

-2-

